                                                                            Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                Office of Inspector General
      DHS Requires Additional Processes and Controls Over Its National Security Systems
                                         OIG-05-09

Since many of the DHS organizational components have established computer systems to access,
process, and store classified national security information, we performed an audit of DHS’ national
security systems. The overall objective of the audit was to determine whether DHS and its
organizational components have implemented adequate security to protect their national security
systems. We performed our work at the program and organizational component levels. We reviewed
national security systems policies and procedures and conducted vulnerability assessments and
security control reviews for a sample of national security systems at six DHS organizational
components.

Our audit was conducted between April 2004 and August 2004. We recommended that DHS take
certain steps to: (1) provide adequate security for the information and information systems that support
its classified operations and assets; and (2) ensure the confidentiality, integrity, and availability of vital
classified information. DHS concurred with our recommendations. We are posting only this summary
on the OIG website because the report contains classified information and should not, consequently,
be widely disseminated.
